        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Management of Energy Savings
Performance Contract Delivery
Orders at the Department of Energy




DOE/IG-0822                      September 2009
                              Department of Energy
                                Washington, DC 20585
                                   September 10, 2009


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                  INFORMATION: Audit Report on the "Management of Energy
                          Savings Performance Contract Delivery Orders at the
                          Department of Energy"

BACKGROUND

The American Recovery and Reinvestment Act established a series of energy-related
goals, one of which was to make Federal facilities more energy efficient. The use of the
Energy Savings Performance Contract (ESPC) concept, a mechanism for financing large
scale energy improvements in Federal facilities, is likely to be an integral part of this
effort. Under this arrangement, a private-sector energy services company (ESCO)
develops and installs energy improvements in exchange for a share of future savings.
Typical improvements include: energy efficient lighting; building management control
systems; and, heating, ventilating, and air-conditioning system improvements. The
Federal agency repays the ESCO for its capital investment over a period of years from
the savings generated. Payments over the life of the ESPC, some extending for as long as
25 years, are based on projected energy use and estimated energy savings agreed to by
the Government.

The Department of Energy's Golden Field Office is responsible for awarding and
administering umbrella contracts called "Super ESPCs" that can be used by all Federal
agencies for facilities worldwide. In December 2008, the Department issued 16 new
Super ESPCs, with a combined ceiling of $80 billion. The Department also oversees its
own ESPC delivery orders (orders) which are site-level contracts that incorporate the
terms of the Government-wide Super ESPCs. As of April 2009, the Department had 16
active ESPC orders with a combined value of $473 million.

In a 2001 report on the Audit of the Department of Energy's Super Energy Savings
Performance Contracts (DOE/IG-0499), we found that the Department had not
maximized the use of its cost-recovery authority to enhance the Super ESPC program.
Because of the results of our prior work and the national goal of making Federal facilities
more energy efficient under the Recovery Act, we initiated this audit to evaluate the
Department’s use of ESPCs.

RESULTS OF AUDIT

Our detailed review of four of the Department's largest ESPC orders, valued at $256
million, determined that the Department (i) had not always effectively used ESPC orders
to achieve energy savings; and, (ii) had not ensured that the Government's interests were
                                             2

adequately protected in this process. As such, the Department may risk spending up to
$17.3 million more than it will realize in energy savings. For the four contracts tested in
detail, we noted that the Department had not:

       •   Ceased payments to the ESCO after projects had stopped generating savings.
           In one case, the Department continued to pay for energy savings even after the
           four buildings containing ESPC improvements had been demolished. The
           Department also continued to pay for an ESPC project that had not functioned
           for six years. Prompt action by Federal officials to modify the contracts when
           circumstances changed would have permitted the Department to save
           $1.4 million;

       •   Verified that ESPC orders had generated the contractually required energy
           savings. At one site, the Department paid the ESCO $3.4 million despite
           having never verified that the savings were actually being achieved;

       •   Ensured that equipment installed as part of the ESPC order was appropriately
           operated and maintained to achieve anticipated energy savings. For example,
           at one site, the ESCO indicated in two consecutive annual reports that the
           nighttime setback temperature in one building was incorrectly set at least 15
           degrees higher than recommended. The temperature variance in this case may
           have caused the heating, ventilation and air conditioning units to operate
           unnecessarily during the evenings; and,

       •   Taken actions to include all costs necessary to implement the energy savings
           initiative when evaluating whether the project was likely to be cost-effective.
           Specifically, the Department may have understated costs by $12.5 million by
           not including all costs related to the implementation of the ESPC orders that
           were incurred by facility contractors.

Our review established that weaknesses in the Department's contract management
strategy for ESPCs, combined with a lack of guidance for evaluating contract proposals
and subsequent performance, directly contributed to each of the above deficiencies. In
particular, we noted that the Department had not adequately managed, monitored, and
controlled the individual orders. In two noteworthy examples, we observed that the
Department had not taken the basic step of ensuring that Contracting Officers were
assigned to the ESPC orders. Our testing also revealed that the majority of those Federal
and facility contractor officials charged with management of ESPC orders had either
received no training or received training that was not sufficiently detailed to permit them
to fully understand or perform all required duties. Additionally, we noted that problems
with guidance may have contributed to issues with the failure to include all
implementation costs in the ESPC order savings calculations and utility rate projections.

As a result of the issues cited in this report, the Department risks spending up to $17.3
million more than it will realize in energy savings from the four ESPC orders that we
reviewed. The Department may also not achieve one of the purposes of the National
Energy Conservation Policy Act, the legislation which is the basis for the ESPC program,
since it risks not having sufficient funds available from energy cost savings in any given
                                            3

year to pay the ESCOs. The Department is in the process of awarding 16 new orders at
its facilities, with contract prices totaling $1.4 billion, making these findings highly
relevant and timely.

Department officials informed us that our audit has brought a tremendous amount of
attention to ESPCs and that, at the macro-level, will undoubtedly improve the ESPC
process within the Department. After being advised of the preliminary results, the
Department initiated certain corrective actions in response to our audit. For example, the
Office of Energy Efficiency and Renewable Energy requested that the Office of the Chief
Financial Officer initiate a review of all Department ESPC orders to identify and address
ESPC management deficiencies. As of July 2009, management officials told us that their
review had identified problems similar to those cited in this report. As a result, the
Department initiated corrective actions to address contract management, measurement
and verification, and risks associated with energy cost fluctuations. In addition, the
National Nuclear Security Administration had taken action to address many of the issues
identified in this report. Specifically, a central Contracting Officer assumed
administration of both orders identified as not having a Contracting Officer and
discussions have commenced with the ESCO regarding the facility that was no longer
operational.

While we consider these actions to be productive and useful, more remains to be done if
the Department is to ensure that ESPCs realize their promise of improving efficiency and
reducing energy consumption and costs across the complex. Prompt and effective
corrective actions are necessary, as well, to strengthen the Department's energy
conservation leadership role and to provide an example for other Federal organizations to
emulate when awarding and managing ESPC orders. As such, we made several
recommendations designed to improve the Department's management of ESPCs.

MANAGEMENT REACTION

While there were several notable disagreements, we consider management's comments to
be generally responsive to the intent of our recommendations.

Management generally concurred and pledged to take or continue previously prescribed
corrective actions to address the weaknesses identified in our report. Management,
however, disagreed with our estimate of savings at risk and the need to include all
directly-associated costs when evaluating the cost-effectiveness of ESPC delivery orders.
While management acknowledged that a policy review is needed to determine the
implementation costs that should be considered in determining the cost-effectiveness of
ESPC delivery orders, it believed that those costs would be significantly less than the
$12.5 million incurred by facility contractors and as detailed in this report. In separate
comments, the National Nuclear Security Administration (NNSA) concurred with four of
seven of our specific recommendations. The NNSA expressed its belief that in spite of
our findings, current Federal training, experience, and certification requirements for
Contracting Officers and technical personnel provide the necessary credentials to
successfully administer ESPC delivery orders.
                                           4

Management asserted that it had taken action to improve the ESPC program prior to our
audit. However, we found that whatever actions had been taken prior to our audit were
not always effective in preventing or resolving problems identified in this report.
Further, we do not concur with its assertions regarding savings estimates, associated
costs, and the qualification and training of staff assigned to administer ESPC delivery
orders. While we believe that corrective actions instituted by management are laudable,
we note that actions to review the delivery orders were not initiated until we brought
weaknesses outlined in our report to management's attention.

Management's comments and our responses are discussed in more detail in the body of
the report.

Attachment

cc:   Deputy Secretary
      Under Secretary of Energy
      Under Secretary for Science
      Administrator, National Nuclear Security Administration
      Assistant Secretary for Energy Efficiency and Renewable Energy
      Chief Financial Officer
      Chief of Staff
      Director, Office of Science
      Program Manager, Federal Energy Management Program
REPORT ON THE MANAGEMENT OF ENERGY SAVINGS
PERFORMANCE CONTRACT DELIVERY ORDERS AT THE
DEPARTMENT OF ENERGY


TABLE OF
CONTENTS


   Management of ESPC Delivery Orders

   Details of Finding                             1

   Recommendations                                8

   Management and Auditor Comments                9


   Appendices

   1. Objective, Scope, and Methodology           13

   2. Summary Table of Delivery Orders Reviewed   15

   3. Related Audit Reports                       16

   4. Management Comments                         17
MANAGEMENT OF ESPC DELIVERY ORDERS                                                             ___

Development and        The Department of Energy (Department) had not always
Administration of ESPC effectively used Energy Savings Performance Contracts (ESPCs)
Delivery Orders        to achieve energy savings. Specifically, in the four ESPC delivery
                       orders (orders) with energy services companies (ESCOs) that we
                       reviewed, the Department had not:

                                • Minimized costs by exercising its option under the orders to
                                  buy-out projects that failed to generate savings;

                                • Verified the accuracy of claimed savings;

                                • Ensured equipment installed as part of the ESPC order was
                                  appropriately operated and maintained to achieve anticipated
                                  energy savings;

                                • Included all cost necessary to implement the ESPC order when
                                  evaluating whether the project was likely to be cost-effective;
                                  and,

                                • Taken action to ensure that savings would exceed the cost of
                                  implementing the ESPC order in any given year.

                                      Payments for Projects that Were Not Operational

                           The Department had allowed ESCOs to claim energy savings from
                           upgrades in facilities that were no longer operational. Specifically, we
                           identified two examples where the Department continued to pay the
                           ESCO for energy efficiency improvements that were not generating
                           any energy savings. Exercising options to buy-out projects when the
                           saving features cease to operate should save the Government money.
                           The Department had the authority to modify the contracts in response
                           to material changes. Specifically, in situations where projects fail to
                           perform, or are no longer necessary, the Department can pay the
                           ESCO for costs incurred thereby avoiding future interest payments and
                           operational costs.

                           In one instance, the Department continued to pay for energy
                           improvements in four buildings at the Y-12 National Security
                           Complex (Y-12) that had been demolished. At the time the order was
                           awarded, the Department planned to continue using the buildings
                           throughout the term of the ESPC order. However, due to unexpected
                           mission changes after contract award, the buildings were demolished
                           over a three-year period beginning in 2005. At that time, site technical
                           personnel believed that Y-12 did not have the funds to buy out the
                           contract. However, funding was not requested for this purpose. Had
                           the Department modified the order to remove the buildings from the


Page 1                                                                    Details of Finding
         contract scope, it could have saved approximately $850,000. After
         we informed the current Contracting Officer of the demolished
         buildings, discussions with the ESCO were initiated to buy out this
         portion of the order.

         At the Pantex Plant (Pantex), the Department continued to pay for
         a laundry facility that stopped working in May 2003, after only one
         year in operation. Although the unit had not been in service for
         approximately six years, the Department continued to pay the
         ESCO for the facility's energy improvements. The Department
         could have saved at least $565,000 had it modified the delivery
         order when the laundry facility stopped working. In 2006, the
         Internal Audit Department at Pantex reported that the laundry
         facility was not operational and recommended that the equipment
         should either be returned to operation or removed from the order.
         At that time, no action was taken to rectify the issue. However, as
         a result of our audit, the current Contracting Officer had initiated a
         process to determine the ESCO's liability for this facility and
         modify the order.

                        Verification of Actual Energy Savings

         The Department had not always verified that actual energy savings
         claims were accurate and sufficient to cover payments to the
         ESCO. According to the contract and applicable procedures, the
         ESCO was responsible for calculating the annual savings generated
         by the ESPC orders, and the Department was responsible for
         verifying the savings and paying the ESCO accordingly. We
         evaluated savings calculations for two orders and determined that
         the Department had not verified that the ESCOs' reported savings
         were accurate and greater than the associated payments. In both of
         the following examples, the Department was unaware of the
         inconsistencies until we presented the results of our review. In
         response, the Department has entered into discussions with the
         ESCOs to enhance future verification activities.

         At Pantex, the Department had not ensured that savings claims
         were calculated in accordance with order requirements. For six
         years, the ESCO used estimates to calculate savings even though
         the order required actual measurements for seven of the nine
         energy improvements. The order required use of actual operating
         hours, utility meter data, and actual readings from the energy
         management control system. The ESCO based the use of estimates
         on a proposed order change that was never approved by the
         Department. Instead of requiring the ESCO to comply with the
         terms of the order, the Department continued to pay the ESCO's



Page 2                                                    Details of Finding
         invoices, including costs to perform the measurements, without
         questioning the change. The Department paid the ESCO
         $3.4 million for energy improvements without proper verification,
         including $160,000 for measurement activities that were not
         performed in accordance with the order. In addition, since the
         required measurements were not performed, it is uncertain whether
         enough savings were generated to cover the payments to the
         ESCO.

         At Y-12, we found that the Department had not required the ESCO
         to calculate annual savings in accordance with the order and had
         not verified that savings were sufficient to cover the associated
         payments. While the ESCO had measured the annual operating
         hours as required by the order, the measurements had not been
         used in the energy savings calculations. Site personnel, however,
         stated that the order required that actual measurements be used in
         the calculations of annual reported savings and that such
         measurements had been used. We noted, however, that the ESCO
         reported the exact same amount of savings for five consecutive
         years of the order. Further, the reported annual energy savings
         were less than the annual payments. Yet, the Department had not
         reduced the amount paid to the ESCO or questioned the savings
         reported. ESCO officials acknowledged that they were required by
         the order to take measurements of actual energy usage, but
         inexplicably claimed that they were not required to use the actual
         usage to calculate energy savings.

                Operation and Maintenance of Energy Improvements

         The Department had not operated and maintained the equipment
         installed by the ESCO as required to achieve the projected energy
         savings. At Y-12, the ESCO indicated in two consecutive annual
         reports that the nighttime setback temperature in one building was
         incorrectly set at least 15 degrees higher than recommended. The
         temperature variance in this case may have caused the heating,
         ventilation and air conditioning units to operate unnecessarily
         during the evenings. After we notified site officials of the
         problem, they took action to properly adjust the thermostat
         settings. However, as noted in our report entitled The Department
         of Energy's Opportunity for Energy Savings Through the Use of
         Setbacks in its Facilities (DOE/IG-0817, July 2009), this problem
         had occurred at a number of other Department sites.

         In addition, some of the equipment had not been maintained by the
         Department to ensure proper performance. One chiller plant
         pump, for example, had been reported "out of service" by the



Page 3                                                 Details of Finding
         ESCO, but the problem was not addressed for three years.
         Management noted that only three of the six primary pumps were
         necessary for optimum performance and therefore, energy savings
         were not impacted by not repairing the pump. In 2008, the ESCO
         reported maintenance problems with three of the six pumps. We
         concluded that optimum performance of the project and future
         savings were at risk in the event of further equipment deterioration.
         According to management, the inoperable pump was repaired in
         January 2009.

                                Implementation Costs

         The Department had not included all implementation costs in
         determining the amount of savings to be realized from ESPC
         orders. Specifically, the Department used other contractors to
         support the ESCO's implementation of the ESPC order during the
         construction period, but did not consider these additional costs
         when evaluating whether the ESPC order would be cost-effective.
         For example, the Department's contractor responsible for
         managing and operating Pantex spent $5.7 million for items such
         as security escorts and project management to support the
         implementation of the ESPC order. According to site personnel,
         these costs would not have been incurred except for the need to
         support the installation of energy efficiency improvements. Other
         Department officials stated that these costs would be incurred as
         part of any energy efficiency improvement project. These officials
         also expressed the view that requiring all implementation costs to
         be recovered through energy savings could put the ESPC at a
         disadvantage as a source of alternative financing for mandated
         energy conservation measures.

         At the Oak Ridge National Laboratory (ORNL), the Department's
         management and operating contractor expended $767,000 to
         support the implementation of the ESPC order during the first six
         months of construction, including $115,000 for an engineering
         support subcontract. In response to our inquiries, ORNL estimated
         that it will incur $6.5 million of costs to support the construction of
         ESPC projects. Since these costs were not included in the ESPC
         economic analysis, they could put the Department in a position
         where the total implementation costs exceed the savings generated
         by the ESPC order.

                                   Annual Payments

         The National Energy Conservation Policy Act (NECPA) requires
         that in any given year, annual payments cannot exceed the annual



Page 4                                                    Details of Finding
         utility savings under the ESPC, according to an Office of the
         General Counsel interpretation and our review of the NECPA.
         Specifically, the NECPA requires that all payments for an ESPC
         be made only from funds appropriated or otherwise made available
         for utilities or related energy costs. To help ensure that projected
         or planned savings are realizable and that funds will be available to
         pay ESCOs, the Department's implementing guidance published in
         the Code of Federal Regulations provides a benchmark for utility
         rate escalation that Federal organizations may use when
         establishing the cost-effectiveness of a project. These rates are
         developed based on laws, policies, energy prices, production, and
         consumption by the Energy Information Administration (EIA) and
         published by the National Institute of Standards and Technology.

         Our audit revealed, however, that actions taken by the Department
         put it at increased risk of not having sufficient annual utility
         savings from the ESPC orders to make annual payments to the
         ESCOs, as required by the NECPA. Specifically, the Department
         allowed the ESCOs to calculate estimated annual energy cost
         savings by using utility rates higher than the EIA rate projections
         in two of the four orders we reviewed. As a result, the estimated
         annual energy cost savings to the Government increased, as well as
         the annual payments to be made to the ESCOs. If the EIA
         benchmark rates prove to be a more accurate projection of energy
         costs than the ESCOs' estimated rates, then the annual cost savings
         will not be sufficient to pay the ESCOs in any given year and the
         Government will have to pay the ESCOs from programmatic
         funds; a practice contrary to the intent of the NECPA.

         At ORNL, for example, instead of using benchmark utility rates
         escalated in accordance with EIA benchmark rates, the ESCO
         averaged the utility rate increases and applied this average increase
         to each year of the order. Further, the ESCO included 30 years of
         utility rate increases in the averaged rate even though the order was
         only for 18 years. Our analysis indicates that beginning in 2012,
         annual savings using the EIA rates are projected to be less than the
         contractually required payments to the ESCO. The projected
         difference in the second year could amount to $195,000, increasing
         to $355,000 in the third year of the order, culminating in $1.8
         million difference between actual savings and payment in the final
         year of the order, 2028. Thus, the Department is at increased risk
         of making payments that exceed projected savings which could,
         over the life of the order, amount to $21.5 million.

         The Office of the General Counsel told us that while EIA rates
         must be used in determining whether a project meets the regulatory



Page 5                                                   Details of Finding
             definition of an ESPC, it is unclear whether implementing
             regulations require agencies to use EIA rates when negotiating
             ESPC orders. We acknowledge that in the case of ORNL, the use
             of the locally-developed rates accelerated the payback period to the
             ESCO, thereby reducing interest payments and the total cost of the
             order. However, use of locally-developed rates also increased the
             risk that savings may not be sufficient in any given year to make
             the contractually required payment to the ESCO, as required by the
             NECPA.

Contract     Our review established that weaknesses in the Department's
Management   contract management strategy for ESPCs, combined with a lack of
             guidance for evaluating ESPC order proposals and subsequent
             performance, directly contributed to each of the deficiencies
             outlined in this report. Because of the technical complexities and
             unique features of ESPCs, the Department has established a tiered
             structure to manage ESPCs. Under this structure, the Federal
             Energy Management Program (FEMP) is responsible for
             establishing guidance for ESPCs; Contracting Officers from the
             Golden Field Office manage the Super ESPC contracts used across
             the Government; and, Department site offices are responsible for
             managing individual ESPC orders at the site-level. We found that:

                  • Site offices had not ensured that adequate management
                    existed for the individual orders;

                  • The Department had not implemented an effective training
                    program for contract and technical support personnel; and,

                  • FEMP had not developed specific guidance regarding
                    estimates of the costs of energy improvements.

             Site offices had not ensured that the ESPC orders were adequately
             managed, monitored, and controlled by Contracting Officers. Two
             of the ESPC orders we reviewed did not have active Contracting
             Officers at the beginning of our audit. In both situations, the
             Contracting Officers had left the organization and no replacement
             had been assigned. As a result, when we initially requested to
             review the contracts, the site offices could not locate the official
             contract file. Although the Y-12 contract file was located within a
             week, the Pantex contract file was not found for almost two
             months. After the Department was notified about our concerns, it
             took action to appoint a new Contracting Officer to each of these
             orders.




Page 6                                                       Details of Finding
                 We also found that the Department had not adequately trained the
                 personnel responsible for contract and technical oversight of the
                 ESPC orders. We provided a questionnaire to contracting
                 personnel, Contracting Officer Representatives, and technical
                 representatives for each of the four orders we reviewed. Of the 15
                 responses received, 10 individuals indicated that they had received
                 no training or that the training they received was not sufficiently
                 detailed to permit them to properly administer an ESPC order.
                 Department officials stated that training opportunities are available
                 for staff managing ESPCs. After our field work was completed,
                 Department officials informed us that they were initiating actions
                 to improve the awareness of training opportunities and to enhance
                 the content of the training courses. According to management,
                 both Pantex and Y-12 have recently received specific training on
                 measurement and verification responsibilities.

                 Further, the contract oversight teams had not been kept abreast of
                 changes to the ESPC control structure as new guidance was
                 developed. For example, in February 2007, FEMP developed a
                 framework for implementing uniform and consistent reviews of
                 annual measurement and verification reports. However, while this
                 guidance was published on the FEMP website, it was only
                 distributed to sites implementing new ESPC orders; sites with
                 existing ESPC orders did not receive the updated guidance.
                 Because the guidance directed reviewers to determine whether the
                 report followed contractual requirements, use of this guidance
                 could have alerted site personnel when all of the savings were
                 based on estimates and when the contractual measurement method
                 was not being followed.

                 Finally, while the NECPA required that all costs be accounted for,
                 FEMP had not developed specific procedures to identify, control,
                 and ensure the recovery of the additional implementation costs
                 incurred by the Department's management and operating
                 contractors. Also, as previously noted, although the Code of
                 Federal Regulations established utility rate benchmarks, it is not
                 clear whether the use of these benchmarks was required when
                 determining the energy cost savings in the order. FEMP, however,
                 had not provided sufficiently-detailed procedures to assist site
                 personnel in determining when to use the utility rate benchmarks.
                 By addressing these two issues, the Department can gain greater
                 assurance that savings will be consistently estimated and sufficient
                 to cover the costs of ESPC orders.

Risk and Costs   As a result of the deficiencies related to pre-award evaluations and
of ESPCs         contract management cited in this report, the Department is at risk



Page 7                                                           Details of Finding
                  of spending up to $17.3 million more than it will realize in energy
                  savings from the four ESPC orders that we reviewed. Specifically,
                  the Department: risked paying the ESCOs $12.5 million more than
                  it will realize from savings because it did not consider all
                  implementation costs in estimating future savings; paid the ESCOs
                  $3.4 million without verifying that the savings were actually
                  achieved; and, did not take advantage of an estimated $1.4 million
                  in savings by promptly modifying orders when ESPC projects
                  ceased to operate. As a result of not using utility rate benchmarks,
                  the Department is at risk of not satisfying the objectives of the
                  NECPA since it may not have sufficient funds from energy cost
                  savings to make annual payments to the ESCOs.

RECOMMENDATIONS   To help prevent the deficiencies outlined in our report and improve
                  the overall usefulness of ESPCs, we recommend that the
                  Administrator, National Nuclear Security Administration (NNSA),
                  and the Director, Office of Science, in conjunction with the
                  Program Manager, Federal Energy Management Program, where
                  appropriate:

                       1. Develop procedures to identify, control, and ensure the
                          inclusion of implementation costs;

                       2. Develop a certification program to ensure that Contracting
                          Officers and technical support staff are adequately trained
                          prior to being assigned to an ESPC;

                       3. Require continuing education to ensure that new or updated
                          procedures are put into effect for existing delivery orders
                          under Super ESPCs;

                       4. Develop a process to ensure that all active delivery orders
                          under Super ESPCs are continuously staffed with trained
                          Contracting Officers and technical support staff; and,

                       5. Clarify guidance for projecting the utility rates to be used
                          when negotiating future ESPC orders.

                  We recommend that the Administrator, NNSA, through the Senior
                  Procurement Executive, direct the Contracting Officer to:

                       6. Promptly make a determination on the need for an
                          equitable adjustment on the Y-12 and Pantex ESPC orders
                          for projects that no longer generate savings; and,




Page 8                                                           Recommendations
                        7. Determine the allowability of costs incurred for the laundry
                           facility and measurement and verification services at
                           Pantex.

MANAGEMENT AND     Management concurred with the report's recommendations but
AUDITOR COMMENTS   disagreed with several fundamental concepts regarding our
                   estimation of savings at risk and the estimated costs of ESPC
                   delivery orders. Management indicated that it planned to
                   implement all of our recommendations. In separate comments, the
                   NNSA concurred with four of seven of our specific
                   recommendations. Additionally, the Department and NNSA
                   indicated that improved controls over ESPCs were implemented
                   before and during the audit.

                   We noted that the Department took immediate action to review
                   ESPC orders after we presented preliminary results of our audit
                   and, after completion of that review, initiated corrective actions.
                   However, the controls in place at the time of the audit failed to
                   prevent or detect the problems that we identified in this report. We
                   have addressed management's comments below and included
                   additional information in the report, as appropriate. Management's
                   comments are included in Appendix 4.

                   Management Comment

                   Management disagreed that all of the $12.5 million in project
                   oversight and management costs associated with efficiency
                   upgrades should have been included in determining the amount of
                   savings to be realized from the ESPC delivery orders. Specifically,
                   management stated that such costs would have been incurred
                   regardless of whether an ESPC was used to achieve energy
                   efficiency goals. Management, however, agreed that a thorough
                   understanding of all direct and indirect costs is an essential part of
                   analyzing any energy efficiency project.

                   During the exit conference to discuss management's comments,
                   officials stated that a policy review is needed to determine what
                   implementation costs should be included in determining the
                   amount of savings to be realized from an ESPC delivery order.
                   While management acknowledged that some portion of
                   implementation costs should have been considered in determining
                   the amount of savings, officials believed that the amount of such
                   costs would have been significantly less than the $12.5 million
                   cited in this report. Management also opined that no other Federal
                   agency interprets the ESPC legislation as requiring that all costs
                   should be considered in determining savings.



Page 9                                        Management and Auditor Comments
          Auditor Response

          The Department's argument that these costs would have been
          incurred to implement additional energy-improvement measures
          regardless of funding source is not consistent, in our view, with the
          intent of the NECPA, which is to ensure that all costs paid to
          implement the ESPC order are paid out of savings accrued during
          the contract. In addition, the Department had not provided us with
          any analysis to support its assertion that costs would be
          comparable for an alternative project. Further, the $12.5 million of
          implementation costs cited in the report only includes direct costs
          that were specifically identified by Departmental sites as being
          performed for the ESPC orders.

          We agree with management that a policy review is needed to
          determine which implementation costs should be included in
          determining the amount of savings to be realized from ESPC
          orders. Such a review is an important step towards implementing
          our first recommendation. Management asserted that because
          other Federal agencies do not utilize management and operating
          contractors to support ESPCs, they do not account for all
          implementation costs in ESPC delivery orders. However,
          management could not elaborate on how other Federal agencies
          accounted for costs such as security escort costs in high-security
          areas that were experienced by the Department during the
          implementation of ESPCs discussed in this report.

          Management Comment

          Management disagreed that the entire $3.4 million in payments
          without verification of savings should be considered at risk and
          noted that the entire amount would only be at risk if the energy
          improvements were not operational.

          Auditor Response

          Although we agree that payments for actual savings are warranted,
          the Department was not able to provide the specific amount of
          savings actually generated. The exact amount of savings will be
          determined by the Contracting Officer when our recommendations
          are addressed.

          Management Comment

          Management also expressed concern about the use of rates
          developed by the EIA as a benchmark for utility rate escalation.



Page 10                              Management and Auditor Comments
          Specifically, officials noted that the use of EIA rates is not
          expressly required by the Code of Federal Regulations and that the
          EIA rates significantly under-predict utility rate escalation.
          Management further commented that comparing ESPC utility rates
          with actual local utility rates would be a better measure of how
          accurately the Department balanced its risks.

          Auditor Response

          Although the Code of Federal Regulations does not specifically
          require the use of EIA rates in the delivery order, it does require
          that EIA rates be used to determine whether a specific project
          meets the definition of an ESPC. Further, the rates established by
          EIA are the Government's estimation of how rates will escalate in
          the future. Additionally, we noted that the rates in all four of the
          delivery orders we reviewed used different methodologies for
          escalating utility rates, even though two of the delivery orders were
          at the same site. Given that the Department repudiated EIA
          projections as not being a reasonable source for utility rate
          escalation, we recommended that the Department establish
          guidance for projecting the utility rates to be used when
          negotiating future delivery orders.

          Management Comment

          In separate comments, the NNSA disagreed with our
          recommendations to develop an ESPC certification program,
          require additional continuing education, and to develop a process
          to ensure orders are continuously staffed with trained personnel.
          NNSA stated that current Federal training, experience, and
          certification requirements for Contracting Officers and technical
          personnel provide the necessary credentials to very successfully
          administer ESPCs.

          Auditor Response

          During the audit, various contracting personnel expressed
          frustration and concern that the administration of ESPC orders
          includes a steep learning curve because ESPC orders are very
          different from other contracts. Technical personnel also explained
          that the training they received was insufficient to perform their
          required duties. Additionally, current Contracting Officer and
          technical staff training does not ensure that delivery orders are
          continuously staffed or that new or updated procedures are put into
          effect.




Page 11                              Management and Auditor Comments
          Management Comment

          The NNSA disagreed that maintenance problems associated with
          three chiller pumps increased the risk to optimum performance and
          energy savings. Specifically, the NNSA noted that while
          maintenance problems were reported on three of the primary
          pumps, two of them were not completely out of service and were
          available for operation.

          Auditor Response

          In our opinion, optimum performance and energy savings were at
          risk if the pumps were not properly maintained and further
          deterioration occurred in the pumps. Additionally, the ESPC order
          requires the Department to maintain this equipment.




Page 12                            Management and Auditor Comments
Appendix 1

OBJECTIVE     Our objective of this audit was to determine whether the
              Department of Energy (Department) had effectively used Energy
              Savings Performance Contracts (ESPCs) to increase energy
              efficiency.

SCOPE         This audit was performed between December 2008 and July 2009.
              Audit work was conducted at the Department of Energy
              Headquarters in Washington, D.C.; the Golden Field Office in
              Golden, Colorado; the Y-12 National Security Complex, Oak
              Ridge National Laboratory, and Oak Ridge Office in Oak Ridge,
              Tennessee; and the Pantex Plant in Amarillo, Texas.

METHODOLOGY   To accomplish the audit objective, we:

                  • Selected a judgmental sample of four ESPC delivery orders
                    (orders) at the Department of Energy (See Appendix 2);

                  • Reviewed essential documentation for the ESPCs,
                    including contracts, proposals, and payment records;

                  • Analyzed the implementation costs of ESPC orders;

                  • Compared contractual projected utility savings to savings
                    calculated using rates published by the National Institute of
                    Standards and Technology;

                  • Toured facilities housing energy efficiency improvements;

                  • Reviewed methods for modifying ESPC orders to reflect
                    energy efficiency equipment that is no longer operational;

                  • Reviewed annual measurement and verification reports for
                    accuracy and compared savings calculations to order
                    requirements;

                  • Obtained and reviewed laws, regulations, policies, and
                    procedures related to ESPCs; and,

                  • Held discussions with personnel from the Federal Energy
                    Management Program, Golden Field Office, Oak Ridge
                    Office, Oak Ridge National Laboratory, Y-12 National
                    Security Complex, Pantex Plant, National Nuclear Security
                    Administration Albuquerque Service Center, and energy
                    service companies.




Page 13                                 Objective, Scope, and Methodology
Appendix 1

             We conducted this performance audit in accordance with generally
             accepted Government auditing standards. Those standards require
             that we plan and perform the audit to obtain sufficient, appropriate
             evidence to provide a reasonable basis for our findings and
             conclusions based on our audit objective. We believe that the
             evidence obtained provides a reasonable basis for our findings and
             conclusions based on our audit objective. The audit included tests
             of controls and compliance with laws and regulations related to the
             ESPC program. Because our review was limited, it would not
             necessarily have disclosed all internal control deficiencies that may
             have existed at the time of our audit. Also, we examined the
             establishment of performance measures in accordance with the
             Government Performance and Results Act of 1993, as it related to
             the audit objective. Although we did not identify performance
             measures specific to ESPCs, we were able to document measures
             for cost effective energy efficiency and renewable energy projects
             to enhance energy security, environmental stewardship, and cost
             reduction within the Federal Government. Finally, we relied on a
             limited amount of computer processed data to accomplish our audit
             objective and found the data reliable. Specifically, we relied on
             computer processed data used to calculate the additional
             implementation costs incurred by the management and operating
             contractor at the Pantex Plant. To determine the data's reliability,
             we relied on an independent auditor's assessment of information
             technology application controls which included tests of the specific
             systems used to create the computer processed data we used.

             We held an exit conference with Department officials on
             September 8, 2009.




Page 14                                 Objective, Scope, and Methodology
Appendix 2

                SUMMARY TABLE OF DELIVERY ORDERS REVIEWED

The table below summarizes the Department of Energy (Department) Energy Savings
Performance Contract (ESPC) delivery orders (orders) reviewed during our audit. We selected a
judgmental sample of 4 orders from the 13 ESPC delivery orders, which were active as of
September 2008. These orders represented $256 million of the total $429 million in ESPCs.
When determining our sample, we considered each order's stage of development, contract price,
and location. The sample included two ESPCs in the construction phase and two ESPCs in the
performance period. During the construction phase, the energy services company (ESCO)
installs the energy improvements at a Department facility. The performance period begins after
the ESCO has installed all the energy improvements and the Department has approved the
installation. At this point, the Department begins repaying the ESCO from the savings generated
by the energy improvements.

                             Contract                   Contract               Energy
                 Award                   Contract
 Location                     Period                     Period             Improvements
                  Date                    Phase
                             (Years)                    Payments
                                                                         Building Automation,
                                                                       Lighting, Ozone Laundry,
                                        Performance
 Pantex Plant   06/01/2000     19                      $10,806,198         Water and Steam
                                           Period
                                                                             Distribution,
                                                                          Solar Water Heater
 Y-12
                                                                        Chiller Plant, Lighting,
 National                               Performance
                03/26/2001     18                       $6,269,735    Building Automation, Water
 Security                                  Period
                                                                        and Steam Distribution
 Complex
                                                                              Lighting,
                                        Construction
 Pantex Plant   12/23/2005     19                      $33,063,817         Water and Steam
                                           Phase
                                                                            Distribution
                                                                         Building Automation,
 Oak Ridge
                                        Construction                      Advanced Metering,
 National       07/30/2008     18                      $206,038,773
                                           Phase                       Lighting, Biomass Steam
 Laboratory
                                                                       Plant, Water Conservation
                                          Totals       $256,178,523




Page 15                                      Summary Table of Delivery Orders Reviewed
Appendix 3

                                 RELATED AUDIT REPORTS


•   Audit of the Department of Energy's Super Energy Savings Performance Contracts
    (DOE/IG-0499, April 2001). The audit reported that the Department of Energy (Department)
    had not maximized the use of its cost-recovery authority to enhance the Super Energy
    Savings Performance Contract (ESPC) program. In fact, the Department did not: (1) fully
    recover the cost of providing services to other Federal agencies; and, (2) use recovered funds
    to achieve greater energy efficiency. This occurred because the Department did not develop
    an appropriate pricing strategy for recovering costs and did not formulate a plan for spending
    the funds it recovered. As a result, the Department, as well as other Federal agencies, may
    not meet their long-term energy-savings goals because they will miss opportunities to use
    private financing mechanisms, such as Super ESPCs, to fund energy-savings projects. To
    address these conditions, actions were recommended to ensure that the Department's costs for
    providing services to other agencies are fully recovered and that the costs are used to enhance
    the Super ESPCs program.

•   Energy Savings: Performance Contracts Offer Benefits, but Vigilance is Needed to Protect
    Government Interests (GAO-05-340, June 2005). The Government Accountability Office
    (GAO) could not verify that financial savings cover costs. GAO work and agency audits
    disclosed ESPCs in which unfavorable contract terms, missing documentation, and other
    problems caused GAO to question how consistently savings cover costs. Furthermore,
    differing interpretations of the law establishing ESPCs about what components of costs must
    be paid for from the savings generated by the project or may be paid for using other funding
    sources have contributed to uncertainties about whether savings are appropriately covering
    costs. GAO recommended that the Congress consider clarifying the costs of ESPCs that
    must be covered by savings. GAO also recommended steps for agencies to better ensure that
    savings cover the costs of ESPCs, including using expertise, information, and competition
    more effectively. GAO further recommended that the Department do more to facilitate
    oversight of ESPCs.

•   Capital Financing: Partnerships and Energy Savings Performance Contracts Raise
    Budgeting and Monitoring Concerns (GAO-05-55, December 2004). GAO found that a
    number of factors may cause third-party financing, including ESPCs, to be more expensive
    than timely, full, and up-front appropriations. However, spreading costs over time enabled
    agencies to acquire capital that might not have been obtainable if full, up-front appropriations
    were required. GAO recommended that the Office of Management and Budget require, and
    suggests Congress consider requiring, agencies that use ESPCs to present an annual analysis
    comparing the total contract cycle costs of ESPCs entered into during the fiscal year with
    estimated up-front funding costs for the same energy improvements.

    .




Page 16                                                                   Related Audit Reports
Appendix 4




Page 17      Management Comments
Appendix 4 (continued)




Page 18                  Management Comments
Appendix 3 (continued)




Page 19                  Management Comments
Appendix 3 (continued)




Page 20                  Management Comments
                                                                    IG Report No. DOE/IG-0822

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
